                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

II C~lse r'Jumlber:   1100310012                                                              Page 1 of 1



         This investigation was opened pursuant to a proactive review of institutions that evaluate NSF
         programs to determine inappropriate charges. An institution l was selected and one of its NSF
         awards2 was reviewed. A review found that gift cards 3 were issued to participants as
         compensation but the gift cards did not seem to have been appropriately accounted for or tracked.
         This indicated a potential problem in misappropriation of participant support funds.

         The institution subsequently provided a complete record, which accounted for gift cards issued to
         all participants throughout the award period, and they certified to the accuracy of this record.
         The institution is no longer using gift cards as compensation to participants. Since the institution
         has ceased this practice, there are no further issues to pursue in this matter. No further action
         will be initiated.

         This case is closed.
